GR-90-98-031
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
 OFFICE OF COMMUNITY ORIENTED POLICING SERVICE
GRANTS TO THE CITY OF EUGENE POLICE DEPARTMENT, OREGON
GR-90-98-031
JUNE 1998
 
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Eugene Police Department (EPD), Oregon. The EPD
received a grant of $300,000 to hire four sworn officers under the Accelerated Hiring,
Education and Deployment Program (AHEAD) and $39,438 to redeploy two sworn officer
full-time equivalents (FTEs) into community policing under the Making Officer Redeployment
Effective program for 1996 (MORE 96). The purpose of the additional officers under each of
the grant programs is to enhance community policing efforts. 
In brief, our audit determined that the EPD violated the following grant conditions:

- The EPD did not have a plan to document or demonstrate the redeployment of two
  officers FTEs to community policing under the MORE 96 grant, resulting in $39,438 of
  unsupported costs. 
- The EPD generally was not in compliance with grant reporting requirements. The EPD
  did not submit the Annual Department Reports for 1995, 1996, and 1997. The Department
  Initial Report overstated the number of sworn officers and was not submitted timely. The
  EPD also failed to submit six of the nine required Financial Status Reports (FSRs) for the
  MORE 96 grant; of the three FSRs submitted, none were submitted timely. In addition, the
  EPD failed to submit one AHEAD grant FSR; of the FSRs submitted, four were not submitted
  timely.

#####